91 ~
L

C

!
r1-

Supre.ne Court, U.S.
FILED

No.

Mi 2 9 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Willie C. Walker
(Your Name)

— PETITIONER

vs.
State of Georgia, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Eleventh Circuit Court Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Willie C. Walker
(Your Name)
6865 W. Strickland
(Address)
Douglasville. Georgia 30134-1171
(City, State, Zip Code)

6786138112
(Phone Number)

QUESTION(S) PRESENTED
Exceptions pursuant to which the government is not subject to suit, even if a private employer could be
liable under the same circumstances. These exceptions include the discretionary function exception, which
bars are claim based upon the exercise or performance or the failure to exercise or perform a discretionary
function or duty on the part of a federal agency or a employee of the government, whether or not the
discretion involved be abused. 28 use 2680(a)(h). In order to determine whether conduct falls within the
discretionary function exception, the courts must apply a two-part established in Berkovitz v. U.S. 486 U.S.
631,536,880 F. 2d. 1018,1025(9th Cir.89). first, the question must be asked whether the conduct involved
an element of judgement or choice. 499 U.S. 315,322(91). This requirement is not satisfied if a federal
statute, regulation, or policy specially prescribes course of action for an employee to follow. 486 U.S. 536.
Once the element of judgement is established, the next inquiry must be whether that judgement is of kind
that the discretionary function exception was designed to shield in that involves consideration of social,
economic, and political policy. Gaubert, 499 U.S. 322-23. See Supreme Ct. Rule 19,20,36,28-USC 2253(c)

___ LIST OF PARTIES

M All parties appear in the caption of the case on the cover page.
[ ] AH parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Willie C. Walker
V.
State of Georgia
Judge Tom Campbell,
DBHDD
ANTRON EVANS,
CITY OF SOUTH FULTON MUNICIPAL COURT.

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION..........................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

a
3

±
£
(o

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
Notice of Filing in the Superior Court-Order and Judgement-Federal Court-U.S.D.C.
APPENDIX B
Judgement And Order In Plea of Mental Incompetency to Stand Trial-Superior Court Fulton
Ct.
APPENDIX C
U.S. Court of Appeals-IFP Denied as Moot-COA Denied No. 20-13871-C
APPENDIX D
U.S. Court of Appeals 11th Circuit-Denying motion for reconsideration-COA-N0-20-13871-C
APPENDIX E
Supreme Court of Georgia Dismissal of the Appeal from Baldwin County
APPENDIX F
United States District Court Order denying COA-1:20-CV-2373-CAP

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

1
2
401 US 371;555 US 113; 129 S Ct. 681 ;995 F. 2d. 728

3

468 F. 3d. 750, 754. 487 US 392. 108 S. Ct. 2449
456 S.E. 2d. 642. 540 F. 3d. 190. 410 F. 3d. 236. 538 U.S. 691,694

4
5

STATUTES AND RULES
28 USC-2253, Supreme Court Rule- 36, Fed. R. App. Proc.22(b), 23)(a) Supreme Ct. Rule 10
28 USC-2253 (c), 28 USC2679 (d)(1); 28 USC 1738, 28 USC-1257.

OTHER
Question's Presented: 486 U.S. 531, 536; 880 F. 2d. 1018,1025; 499 U.S. 322-23; Supreme Ct.
Rule 19, 20, 36.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

X) For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix -D.
the petition and is
[ ] reported at NO. 20-1.3871,,-C.
; or,
[ ] has been designated for publication but is not yet reported; or,
XI is unpublished.
The opinion of the United States district court appears at Appendix JE
the petition and is
[ ] reported at 1: 20-CV-2373-CAP
5 or,
[ ] has been designated for publication but is not yet reported; or,
XI is unpublished.
XI For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix £___ to the petition and is
[ ] reported at Case No. S14A1337
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the_
to the petition and is
appears at Appendix
[ ] reported at____
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

50 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 03/04/2021_________ ■
[ ] No petition for rehearing was timely filed in my case.
DO A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: .May 18. 2021________ , and a copy of the
order denying rehearing appears at Appendix S3
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

50 For cases from state courts:
The date on which the highest state court decided my case was June 16. 2014 .
A copy of that decision appears at Appendix E_____
i

[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

1

STATEMENT OF THE CASE
Alof.a_civil action,.28 USC-2679--Petitioner-fi!ed-a-petition for4he~Writ of-Habeas-Gorpusin-the--------United States District Court for the Northern District of Georgia, case no. 1:11-cv-0174-CAP-CCH; on
April 22, 2011, the petitioner Received the Final Report and Recommendation that set forth a
dismissal without prejudice and the COA be denied. On May 17th, 2011 petitioner received the Final
Order Judgement of the Court. The judgment was filed in the Superior Court of Fulton County on May 24
judgment was not under seal of the court apparently due to the court denial of the certificate of appealabi
Therefore, the certificate must be obtained from the Eleventh Circuit Court of Appeals.
Petitioner filed for an out of time appeal in the district court, the motion for out of time appeal was
Denied and the application to or proceed in forma pauperis was dismissed as moot, on April 4th,
2011, petitioner filed an appeal in the Eleventh Circuit Court of Appeals, the appeals was dismissed
sua sponte, for lack of jurisdiction. Case No. 11-13818-1. Petitioner filed a RICO COMPLAINT IN THE
DISTRICT COURT FOR The NORTHERN DISTRICT OF GEORGIA, the Motion to proceed IFP was Der
could not use a private civil complaint to request release from his involuntary civil commitment, as he
had to use federal habeas petition to request such relief. See Hutcherson V. Riley, 468 F. 3d. 750,754(11
appropriate Federal Agency within 60 days after the dismissal of the civil action, 28-USC 2679(e) the
Attorney General may comprise or settle any claim asserted in such civil action or proceeding in the
manner provided in section 2677 and with the same effect. Sheridan V. U.S. 487 U.S. 392,108 S.
CT. 2449.

REASONS FOR GRANTING THE PETITION
Petitioner claim that the City of South Fulton Municipal Court binding over case no. 2018-213003,
and that Evans failed to appear on the court date which denied petitioner Due Process, and equal
protection under the law and subject matter of jurisdiction. Also, the petitioner call the office of Fulton
County Solicitor and was told that there is no record related to that case number given. In support of
the proposition that intent to injure stripes a defendant state officer or employee of official immunity,
Ga. Const, of 1983, Art. Sec. 2, par. 9 (d). 234 F. 3d. 514. In order to decide whether the defendants
are entitled to the immunity they claim, which is question of the law. we must determine three issues
(1) whether the GTCA applies to this action (2) whether defendants are state employees; if so (3)
whether their actions were conducted with the intent to injure him, they necessarily fell outside of the
scope of their employment thus, defendant are subject to liability for those actions. It is well
established in tort law that, when two concurrent causes naturally operate to.produce an injury, the
individual tortfeasors maybe sued jointly or separately, because their wrongful conduct together
becomes the proximate cause of the injury. Adam and Adam, Ga. Law of Torts 15-5, 456 S.E. 2d. 642
See also Walker v. State of Georgia, Writ of Habeas Corpus, Summons and Petition in the
Superior Court of Fulton County, case no. HC01032, Filed August 23rd 2018, also the suspension
clause. In addiction removal otherwise permitted By section 28 use 1441 (a) maybe barred by Congress if
such as those arising under state workers compensation laws or the Federal Violence Against Women Aci
691,694(2003). Several courts of Appeals have extended its holding and found that states waive their
Eleventh Amendment Immunity from suit over federal claims as well when they remove such claims
to federal court. Lombardo v. Pennsylvania 540 F. 3d. 190; Meyers v. Texas 410 F. 3d 236. Trial court
erred in holding that O.C.G.A. 17-7-130(c) is constitutional and violated defendants right to due process w
charged with committing violent crimes and found mentally incompetent to stand trial. 17-7-130 (6)(b), whe
it shall be the duty of the court to cause the issue of the defendants mental competency to stand trial
to be tried first by a special jury. Rooker-Feldman is a jurisdictional bar, whereas res judicata
determines which party prevails after the court has assumed jurisdiction over the suit, see GASH
Assocs. 995 F. 2d. 728
\

f

9

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Verified by PDFFIller

W/kQi w^r
Date:

t,

6

